Public Appendix

Memorandum opinion and judgment, District of Columbia Court of Appeals, 7/22/2021
Docket sheet D.C. Superior Court
Order, D.C. Superior Court, 5/20/2020
Order, D.C. Superior Court, 11/06/2021
Order, D.C. Superior Court, 11/20/2018
Order, D.C. Superior Court, 9/11/2018
Order, D.C. Superior Court, 8/23/2018
Ruling(s) Bahrain Islamic Affairs & Waqf Court
Child's own written testimony
Lawyer emails threatening me unless I violate Original Consent Custody Order
D.C. Superior Court hearing transcript(s)
Letter, Safe Shores child trauma therapy
Letter, D.C. Public Schools trauma-based IEP determination
Letter, MSP child abuse and domestic violence trauma-based admission
Email, U.S. Department of State's American Citizen Services, OIG
Letter, U.S. Department of Justice, Civil Rights Division, Criminal Section-PHB
Email thread, Congressman Susan Davis
Photos of wedding onboard active military carrier
My profile
My professional endorsements
My Bachelor's Degree in Child Development from San Diego State University
Letter, referencing my outcomes as a mother/teacher from Poway Unified School District
My daughter's profile
My daughter's reference letter, Program Manager, Writopia Lab
My daughter's reference letter, President/CEO DC Urban Debate League
My daughter's reference letter, Past President of American Women's Association, Bahrain

DISTRICT OF COLUMBIA COURT OF APPEALS
No. 20-FM-0099
Adelaide Lorind Scurlock-Zindler, Appellant,
a

V.

LE !

Peter Henry Zindler, Appellee.

JUL 22 2021

Appeal from the Superior Court
of the District of Columbia
(DRB-2297-18)

DISTRICT OF COLUMBIA
COURT OF APPEALS

(Hon. Steven M. Wellner, Trial Judge)
Decided July 22, 2021)

(Submitted March 4, 2021

Before Glickman and Easterly, Associate Judges, and Steadman, Senior
Judge.
MEMORANDUM OPINION AND JUDGMENT
Appellant, Adelaide Lorind Scurlock-Zindler, acting pro se, has filed a brief
in which she addresses a myriad of issues spanning the two years that she and
appellee, Peter Henry Zindler, deliberated custody and support of their minor child
in the trial court. The appeal itself, however, is taken from an order, agreed to by
the parties, which modified a Permanent Consent Custody and Support Order, also
agreed to by the parties. For the following reasons, we affirm the order before us
for review.
L Background
Appellant and appellee entered into a Permanent Consent Custody and Child
Support Order on December 20, 2018 (“the December 2018 order”). Both parties
filed competing motions for contempt for non-compliance with the December 2018
order in the months following the issuance of that order. A hearing was held on
November 6, 2019, at which the trial court discussed each party's motion for
contempt, eliciting each movant’s asserted bases for contempt, as well as the accused
party’s explanations for asserted non-compliance. The trial court questioned both

y A, p ^

^

2

parties on what they would do to ensure compliance with the December 2018 order.
At die end of this hearing, the parties deliberated outside the presence of the motion
court and produced an agreed-upon modification to the December 2018 order. The
trial court discussed the parties’ proposed modification and ensured that each party
agreed to it before making it an order of the court.
Before dealing with the main issues on appeal, we address appellee’s
threshold contention that appellant failed to timely file a notice of appeal in this case.
While the parties discussed and approved the modification of the December 2018
order on November 6,2019, appellee attended the hearing via telephone. As a result,
D.C. App. R. 4(a)(1), (6) provided that the order was not entered for purposes of
calculating the time for filing a notice of appeal until five days later, excluding
weekends and holidays per D.C. App. R. 26(a)(2). Therefore, the order was deemed
entered on November 14, 2019. Excluding the day of the event triggering the
deadline, D.C. App. R. 26(a)(1), the period during which appellant could file this
appeal began November 15, 2019. Because the last day of that period fell on a
Saturday, the deadline to file was Monday, December 16, 2019, D.C, App. R.
26(a)(3), the day on which appellant filed the notice of appeal in this case.
Therefore, appellant’s appeal was timely filed.
II. Analysis
Appellant raises a number of objections to various parts of the proceedings
that culminated in the agreed upon order entered by the trial court on November 6,
2019 modifying the Permanent Consent Custody and Support Agreement. To the
extent that appellant addresses alleged problems with proceedings or conduct that
pre- or post-date the November 6, 2019 order, they do not at this point affect the
validity of the trial court’s order entering the modified consent agreement because
appellant gave her consent to that modification and that order is the only matter now
before us. As we have explained,
A consent judgment is an order of the court,
indistinguishable in its legal effect from any other court
order, and therefore subject to enforcement like any other
court order. It is also a contract, which must be construed
within its four comers. It should generally be enforced as
written, absent a showing of good cause to set it aside, such
as fraud, duress, or mistake. No showing of good cause has
been made in this case, and the record reveals no reason
why the consent judgment to which the parties freely

? 1 of Ll

3

agreed, with the approval of a Superior Court judge, should
not [be] enforced as written ....
Moore v. Jones, 542 A,2d 1253, 1254 (D.C. 1988).
As in Moore, appellant has not made a showing in any trial court proceeding
of good cause to set aside the parties’ consent agreement, nor does the present record
reveal any reason to doubt the parties’ consent to the modification. Rather, the
record before us shows that appellant repeatedly agreed to the provisions of the
modification.1 Appellant does contend, for the first time on appeal, that she only
agreed to the modification under duress due to the court’s threat to place her in
contempt for non-compliance with the original 2018 order. However, the correct
venue to raise a fresh challenge to the validity of the parties’ contract modifying the
original 2018 consent agreement - as enshrined in the November 6,2019 order - is
the Superior Court. Our jurisdiction is limited to reviewing decisions of the trial
court. See D.C. Code § 1 l-721(a)(l) (2012 Repl.) (establishing our appellate
jurisdiction over “all final orders and judgments of the Superior Court of the District
of Columbia”). Therefore, we cannot decide the merits of appellant’s claim that
duress undermines the validity of the modification.2
With respect to appellant’s complaint that the trial court did not hold appellee
in contempt, that issue is independent of the order agreed to by appellant and not
properly before us. In any event, appellant has tailed to show in the existing record
an abuse of discretion by the trial court in failing to hold appellant in contempt, a
decision that we could reverse “only upon a clear showing of abuse of discretion.”
In re T.S., 829 A.2d 937, 940 (D.C. 2003). With respect to appellant’s complaints
l

See Tr. 11/06/2019 at 73 (“THE COURT: Okay. Any problem with that?
MS. SCURLOCK-ZINDLER: Not at all.”); id, at 80 (“THE COURT: Maybe you
will just each send me the names that you’ve proposed ... along with a couple of
paragraphs about why you think that person is well suited to this job. And then I
will choose. MS. SCURLOCK-ZINDLER: I like it ”); id. at 84 ("THE COURT:
That’s an assumption. By 1be 18th, you either provide the name, jointly, or you
provide separately your two names, a quick explanation for why they’re really good
for the job, and then by the end of that week, I will tell you who the person is. And
then you’re obligated to get - that’11 be an order that you should promptly retain that
person and move forward. MS. SCURLOCK-ZINDLER: Okay.”).
2 The same may be said with respect to appellant’s assertions that appellee
engaged in some lying during the proceedings.

'?

3 o£ ^

4

related to the Bahrain proceedings, these too do not bear on the subsequent agreed
upon and superseding order now on review dealing with present child support and
custody, regardless of any relevance they may retain regarding the apparently still
outstanding and distinct issue of divorce.
For the reasons stated above, the trial, court’s November 6, 2019, order is
hereby affirmed.
Affirmed.
ENTERED BY DIRECTION OF THE COURT:

i a.
.rtjLIO A. CASTILLO
Clerk of the Court

Copies to:
Honorable Steven Weilner
Director, Family Division
Copies e-served to:
Adelaide Lorind Scurlock-Zindler
Jennifer Anukem, Esquire

?

Additional material
from this filing is
available in the
Clerk's Office.

